     Office of Inspector General




Student Loan Program 


          March 27, 2008 

          Report No. 439 

                                               U N I T E D STATES
                             S E C U R I T I E S A N D EXCHANGE COMMISSION
                                         WASHINGTON, D.C.           20549

     O F F I C E OF
INSPECTOR GENERAL




          To: 	   Diego T. Ruiz, Executive Director

                  Jeff Risinger, Associate Executive Director, Office of Human Resources

                  Kristine Chadwick, Associate Executive Director, Office of Financial
                  Management

          From: 	H. David Kotz, inspector Gener
                                                MA'          ./.'


          Date: 	 March 27, 2008

          Re: 	   Office of Inspector General - Audit of Student Loan Program (No. 439)


          Attached is our final audit report on the Audit of Student Loan Program. Your
          comments to the draft report have been incorporated a s appropriate.

          Commission management agreed with all 19 of the recommendations. We
          appreciate the courtesy and cooperation extended to our staff during this audit.

          Attachment

          cc: 	   Peter Uhlmann 

                  Zayra Okrak 

                  Teresa Ellison 

                  Donna Quarles 

                  Darlene Pryor 

                  Lisa Lander 

                  Edith Hocutt 

                  Donna Diller 


                  Richard Hillman, GAO
                                     Table of Contents 

Executive Summary....................................................................................... 2 


Objectives. Scope. and Methodology..................................................................3 


Background ..................................................................................................5 


Audit Results ............................................................................................... - 7 


         Strengthening Internal Controls ...........................................................8 

         Identifying and Collecting Former Employee Debts ....................................11

         Improving the Justification Memorandum Process ...................................12 

         Planning for Compliance Issues ............................................................14 

         Improving Vacancy Announcements ...................................................... 15 

         Discussion of Management Comments ................................................... 16 


Appendices

         A. Abbreviations ..............................................................................................   17 

         B . List of Recommendations ................................................................1 8 

          C. Management's Comments................................................................2 1 

         D . Sampling and Testing Methodologies ................................................22 

         STUDENT LOAN PROGRAM 



The Office of Inspector General of the Securities and Exchange Commission
(Commission)1 conducts regular audits and inspections of Agency operations to
promote the effectiveness, integrity, and efficiency of the Commission. I n July 2007,
we received a n anonymous complaint about the CommissionJsStudent Loan
Repayment Program (SLP), which stated that the Commission is improperly
reimbursing staff for loans to pay for their children's education; that the Commission
has not been sufficiently reviewing supporting documentation when processing
awards; and employees who do not intend to leave the Commission are improperly
receiving awards. I n light of this complaint, and i n view of the significant dollar
amounts associated with SLP, we conducted a n audit of the program. Our audit
objectives included issues that went beyond the allegations outlined in the complaint.

As a whole, we found that several aspects of the S L P needed significant
improvement. We identified weaknesses i n the SLP's internal controls relating to
approvals, the lack of documentation regarding parts of the process (e.g., repayments
by employees who do not complete a three-year employment service agreement),
deficiencies in the areas o f independent verification, management records,
safeguarding personal information, and the separation of duties. I n addition, we
found serious concerns with the Commission's process to identify and collect debts
from employees who leave the Commission without completing their employment
service agreement. We identified 12 employees that left the Commission who must
repay $129,336 i n total to the SLP, because the terms of the service agreement
obligation was not met. A s a result of our audit, collection efforts were initiated to
obtain the funds.

We further found that the S L P s justification memorandum process needs
improvement to ensure criteria established by the Office of Personnel Management
(OPM) and the Collective Bargaining Agreement (CBA) is meaningful. Finally, we
identified a compliance issue that the Commission needs to address i n order to
ensure funds for S L P are used i n a n appropriate manner.

 This report consists of 19 recommendations that include S L P officials strengthening
internal controls, identifying and collecting former employee debts, improving the
justification memorandum process, planning for compliance issues, and improving
 vacancy announcements. (See Appendix B) Implementing these recommendations

1   See abbreviations used in Appendix A.

STUDENT LOAN PROGRAM                                                  MARCH 27, 2008
AUDIT 439
should strengthen the program's internal controls and correct the deficiencies
detailed in this report. Commission management concurred w i t h all of our
recommendations. Their formal written response is included a s Appendix C.



OBJECTIVES, SCOPE, AND METHODOLOGY 

We performed the audit in response to a n anonymous complaint that alleged:
          The Securities and Exchange Commission (Commission) is reimbursing staff
          for loans to pay for their children's education (i.e., "Plus" loan$);
          The Office of Human Resources (OHR) does not generally review supporting
          documentation when processing the award (i.e., student loan
          reimbursements); and
          Employees with 20 to 25 years of Commission service are receiving the
          award, but they do not intend to leave the Commission.

The audit objectives included issues beyond those mentioned i n the complaint. Our
objectives were to:
Obiectives
Our audit objectives were to:
      Review the Student Loan Repayment Program's (SLP) compliance with:
               o 	The authorizing statute, 5 U.S.C. 5379;
               o 	Office of Personnel Management's (OPM) implementation regulations,
                  5 CFR 537;
               o 	The Collective Bargaining Agreement (CBA), Chapter 25, between the
                  Commission and the National Treasury Employees Union; and
          Identify improvements, if any, in the SLP.

Scope
The scope of our review generally included applications from FY2006; except for
example with respect to our wok on identifying and collecting debts former
employee debts. Additional information on our scope is provided in Appendix D.

We did not evaluate whether SLP is effective (e.g., helps to retain employees).
Instead, we reviewed OHR's implementation of Government Accountability Office
(GAO)3 recommendation t h a t the Commission should build upon its efforts to
measure SLP's impact. We also reviewed the SLP's justification memorandum
process used to approve awards.



    Parents can obtain this loan either from a private lender or through the federal government (i.e., eligible
    for the SLP) to pay for their child's education. The parents are financially responsible for the loan.
3   Federal Student Loan Proaram (GAO-05-762) dated July 2005.

STUDENT LOAN PROGRAM                                                                        MARCH 27, 2008
AUDIT 439
                                                                               Page   4



We did not review certain CBA requirements because they were either not
applicable or, not able to be performed. For example, the Commission is required to
award at least 20 percent of the SLP funds to non-professional employees. The
Commission has not complied with the requirement and we informed both
management and the union of this matter. Based on our review, generally all
applicants receive the $10,000 maximum award. Hence, the number of employee
applications to SLP appears to be the determining factor a s to whether the
Commission awards 20 percent of the funds to non-professional employees.

Lastly, the Commission makes SLP award payments through the payroll process
and uses the Department of Interior's 0 0 1 ) payroll system. We did not review
whether DO1 withholds the proper amount of required taxes on the awards.

Methodology
We performed our audit from October 2007 to February 2008. Our methodology
included conducting interviews with Commission personnel, testing internal
controls,4 reviewing management reports, reviewing vacancy announcements, the
authorizing statute (5 U.S.C. 5379) and OPM regulations, reviewing best practices,
and survey award recipients. In addition, we performed a survey of 36 SLP award
recipients between November 2007 and December 2007. Eleven recipients
responded to our survey.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require t h a t we plan a n d
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. .

Use of Computer-Processed Data
OHR uses Excel to record information involving SLP awards and former employees.
We determined that the information in the Excel spreadsheets was generally
reliable, except involving former employees, a s discussed later in the report. We
assessed the reliability of the data by verifying source documents (e.g., Commission
Form 2497, the service agreements, etc.).

Prior Audit Coverage
I n July 2005, GAO performed a government wide audit on the Federal Student Loan
Program (GAO-05-762) dated July 2005. GAO was asked to identify:
       Why agencies use or are not using the program;
       How agencies are implement the program; and
       What results and suggestions agency officials could provide about the
       prograin and how the view OPM's role in facilitating its use.

 See Appendix D for the sampling and testing methodologies.

STUDENT L O A N PROGRAM                                             MARCH 27, 2008
AUDIT 439
GAO recommended that the Commission should build upon current efforts to
measure the SLP's impact. OHR indicated they developed a plan in consultation
with the statistical and metrics experts a t OPM's Interagency Working Group to
determine the usefulness and validity of measures for evaluating the SLP. The
planned measures include calculating and assessing:
          The number of employees who seek additional awards, which requires
          extending the service time;
          The attrition rate of employees, particularly those in mission critical
          positions who completed the initial three-year service agreement; and
          The number of employees who leave the Commission before completing the
          service agreement(s).

Internal Controls
We found weaknesses in the SLP's internal controls. We also identified significant
amounts of former employee debt t h a t the Commission did not collect, a s a direct
consequence of the internal control weaknesses.6 However, we have not identified
any other specific errors or irregularities in processing SLP awards that were
directly caused by these deficiencies7 The maximum annual and lifetime awards do
somewhat mitigate a t present some of the internal control weaknesses. According
to OHR, the lack of adequate staffing and/or storage space caused many of the
weaknesses.


                                     BACKGROUND 

General Information
The government-wide SLP was established in accordance with 5 U.S.C. 5379.
Federal agencies use SLP as a n incentive to recruit and/or retain highly qualified
employees by paying their outstanding loan balances for federally insured or
guaranteed student loans. Federal agencies are required to develop the SLP in
accordance with the statute (5 U.S.C. 5379) and OPM regulations governing the
SLP. After negotiations with the Union, in fiscal year (FY) 2003, the Commission
established its SLP. According to OPM, as of FY 2006, 34 agencies have established
a SLP.

Pursuant to the statute (5 U.S.C. 5379), agencies can award employees up to
$10,000 annually and a maximum of $60,000 for SLP award. DO1 remits a payment
directly to the lender for approved SLP awards, minus deductions for income, social
security, and Medicare taxes.


5   Internal controls are designed to provide reasonable assurance of achieving effective and efficient
    operations, reliable financial and performance reporting, or compliance with applicable laws and
    regulations. {GAO Auditing Standard 1.30)
6   This issue is discussed in the Identifying and Collecting Former Employee Debt finding.
7   See Appendix D, Sections I & IIfor the sampling and testing methodologies used.

STUDENT LOAN PROGRAM                                                                     MARCH 27, 2008
AUDIT 439
                                                                                                Page    6



Employees that receive a n SLP award must sign a three-year service agreement.
The Commission requires employees to commit to another year of service for each
award approved thereafter. Pursuant to the statute, the employee must repay the
entire award if they voluntarily leave the federal government for the private sector,
or are dismissed for poor performance, unless repayment is deemed to be "against
equity and good conscience or against the public interestn.8 However, employees do
not have to repay the SLP award if they transfer to another federal agency.

In FY 2007, according to OHR the Commission paid approximately $3.4 million in
SLP awards9 for 369 employees consisting of approximately 78 percent attorneys,
accountants, and compliance examiners. Federal agencies are required annually to
provide OPM with:
        Number of employees participating;
        Job series; and
        Total agency cost.

According to OPM, in FY 2006, the Commission awarded more funds than any other
agency in the federal government, except for the Department of Justice,
Department of Defense, and U.S. Department of State. In addition, the Commission
paid more money per recipient than any other federal agency that had a significant
number of recipients.

Ap~lvingand Receiving Student Loan Reimbursements
OHR accepts SLP applications towards the end of each fiscal year. To be eligible to
apply for SLP, the Commission requires employees to work a t the agency one year.
Either the supervisor can nominate a n employee for the SLP or employees can
nominate themselves for a n SLP award. The supervisor completes Commission
Form 2497, Recommendation and Approval, and prepares a justification
memorandum to OHR.

The Associate Executive Director of OHR and the Commission's Executive Director
may also reviewlapprove SLP request and determine award amounts.
Subsequently, if approved, OHR provides the employee with Commission Form
2499, Loan Data Verification, for information about the loan. The employee must
complete the form; provide SLP officials with a current Federal Aid Review pagelo
and copies of the loan account statements.

After OHR reviews the Federal Aid Review page and determines that the loan exists
and it is not delinquent, they send the employee a service agreement. OHR then


8 5 U.S.C. 5379 (c)(3)
9 This data does not include Plus loan applications that the Commission retroactively paid in 2007 because
   the Commission initially denied them in FY 2005-2006, as discussed later. According to OHR records,
   the Commission paid approximately $643,000 on 53 Plus loan applications that were submitted in FY
   2005-2006.
10 This document provides information on the loan history, payments, and status. It is available from the
   Department of Education's website.

STUDENT LOAN PROGRAM                                                                 MARCH 27, 2008
AUDIT 439
                                                                             Page       7



instructs DO1 to make the payment, minus the required taxes. The employee then
must provide OHR with documentation indicating that the lender received and
properly applied the payment.


                             AUDIT RESULTS 

We performed the audit in response to a n anonymous complaint that alleged. With
respect to the particular issues specified in the anonymous complaint, we found the
following:
      The Commission is reimbursing staff for loans to pay for their children's
      education (i.e., "Plus" loans) (Allegation 1);
      Since FY 2003, the Commission had been reimbursing employees for loans to
      pay for their children's education (i.e., Plus loans), when the employee met
      certain requirements such a s being the primary holder of the loan. From
      2005 to 2006, the Commission disallowed applications for Plus loans.
      However, in 2007, the applications were retroactively paid because the
      Commission had not negotiated the policy change with the Union;
      The Office of Human Resources does not generally review supporting
      documentation when processing the award (i.e., student loan
      reimbursements) (Allegation 2); and
       OHR reviews SLP supporting documentation, but the review process needs
       significant improvements, a s discussed i n the report; and
       Employees with 20 to 25 years of Commission service are receiving the
       award, but they do not intend to leave the Commission (Allegation 3).
       We confirmed t h a t employees with many years of service received SLP
       awards. Thus, it is likely t h a t employees received awards, even though they
       did not intend to leave the Commission. Specifically, we found that 14
       percent (59 of 411) employees received a n SLP award in FY 2006 or
       submitted a Plus loan application had been with the Commission for a t least
       10 years a s of September 30, 2006. We also found that 4 percent (18 of 411)
       employees were employed at the Commission for a t least 20 years.

In response to the GAO audit recommendation issued in Federal Student Loan
Program (GAO-05-762) dated July 2005, OHR indicated they developed a plan in
consultation with the statistical and metrics experts at OPM's Interagency Working
Group to determine the usefulness and validity of measures for evaluating the SLP.
The planned measures include calculating and assessing:
       The number of employees who seek additional awards, which requires
       extending the service time;
       The attrition rate of employees, particularly those in mission critical
       positions who completed the initial three-year service agreement; and
       The number of employees who leave the Commission before completing the
       service agreement(s).

                 -   -   -                                                        ---



STUDENT LOAN PROGRAM                                                 MARCH 27, 2008
AUDIT 439
                                                                                Page    8



We are pleased that OHR intends to evaluate the usefulness of the SLP program,
and concur that such a n assessment is critical to any decision on the future of the
SLP. When conducting the evaluation OHR needs to improve the justification
memorandum process because the memoranda supervisors submits routinely lacks
the substance needed to demonstrate fulfilling the required criteria such as the
employee is likely leave the federal government.

The SLP appears to be materially compliant with the statute (5 U.S.C. 5379), OPM
regulations, and the CBA. However, a s discussed throughout the remainder of this
report, the SLP process needs significant improvement.

STRENGTHENING INTERNAL CONTROLS
We found weaknesses in the SLP's internal controls. We also identified significant
amounts of former employee debt that the Commission did not collect, a s a direct
consequence of the internal control weaknesses. However, we have not identified
any other specific errors or irregularities in processing SLP awards that were
directly caused by these deficiencies. The maximum annual and lifetime awards do
somewhat.mitigate a t present some of the internal control weaknesses. According
to OHR, the lack of adequate staffing and/or storage space caused many of the
weaknesses. The weaknesses and/or deficiencies that we have identified a r e a s
follows:


          The Associate Executive Director of OHR approves waivers if an employee
          does not complete the service agreement(s). This authority has not been
          delegated in writing;
          The Recommendation and Approval, Commission Form 2497 should require
          the employee's supervisor printed name. This will help OHR verify that
          supervisors are recommending and reviewing officials and signatures;
           The Associate Executive Director of OHR does not approve the award a s
           required by Commission Form 2497. According to OHR, the form is not
           accurate and the Associate Executive Director is only required to approve the
           award in certain instances. However, no guidance has been issued regarding
           the circumstances when approval is required. Thus, OHR does not comply
           with the language on the form; and
          According to Commission Form 2497, the Executive Director must approve
          the award, if required. We are unaware of any instances where t h e
          Executive Director approved a n award. I n addition, no guidance h a s been
          issued regarding the circumstances when the approval is required.
          According to OPM regulations11 SLP awards should be approved by officials
          who approve other recruitment and relocation incentives. OHR stated that
          the Executive Director approves the other incentives. Therefore, it appears
          that the Executive Director should be approving the SLP awards i n every
          circumstance.

l1   5 CFR 537.103(a)(l)

STUDENT L O A N PROGRAM                                                 MARCH 27. 2008
AUDIT 4 3 9
                                                                            Page     9



Documentation
      The SLP files generally lack documentation regarding repayments by
      employees who do not complete the service agreement(s); and
      An administrative assistant acts as either the preparer or reviewer for each
      DO1 payment request. However, the documentation does not always
      correctly indicate who prepared or reviewed the payment.

Independent Verification
      The employee submits a printout of the Federal Aid Review page and loan
      account statements, but the documents can be falsified, for example to
      indicate that the loan is not delinquent. OHR could mitigate this weakness
      by, for instance, confirming the loan information with the lender. However,
      OHR has stated that it no longer typically performs this step because they
      began to receive a significant volume of applications and did not receive
      timely responses from the lenders. Accordingly, OHR modified this process
      after consulting with OPM and the Department of Education; and
      The employee provides OHR with documentation (e.g., the Federal Aid
      Review page) t h a t the lender received and properly applied the award
      payment. However, the employee could falsify the documentation.

Management Records - Excel Spreadsheets
      The data on former employees is not reliable. For example, there is a lack of
      timely and complete information. OHR believes that the problem is mainly
      attributable to when the SLP began. However, even if this assertion
      explains some of the problems, we found t h a t OHR has not been sufficiently
      diligent in maintaining these records and improvement is needed i n this
      area.

Safeguarding Information
      The SLP files contain sensitive personal information (e.g., social security
      numbers), but the files are not adequately safeguarded. According to OHR,
      all its data needs improved safeguarding.

Separation of Duties
The SLP process generally lacks adequate separation of duties. Separation of duties
is critical to reducing the risk of error, waste, and fraud. For instance, a sole SLP
employee:
       Determines the adequacy of the justification memorandum;
       Reviews the Federal Aid Review page;
       Approves the Commission Form 2497;
       Generally records and maintains the SLP management records; and
       Prepareslreviews and authorizes DO1 to issue payments.

STUDENT L O A N PROGRAM                                             MARCH 27, 2008
AUDIT 439
       Recommendation A
       OHR should undertake the following actions regarding approvals throughout
       the SLP process. See Recommendations B and I:
              Officially delegate in writing the authority for the Associate Executive
              Director of OHR to approve waivers if a n employee does not complete
              their Service Agreement, if the Associate Executive Director retains
              this authority;
              Amend Commission Form 2497 to require that the employee's
              supervisor print their name; and
              Issue guidance andlor amend Commission Form 2497 to delineate in
              what circumstances the Associate Executive Director is required to
              approve the SLP award.

       Recommendation B
       The Office of the Executive Director should review OPM regulation (5 CFR
       537.103(a)(l)) and ensure that the proper individual approves the SLP
       awards, as required.

       Recommendation C
       OHR should ensure that SLP files contain all appropriate documentation
       regarding repayments by employees who do not complete their Service
       Agreements.

       Recommendation D
       OHR should ensure that the documentation surrounding the payment
       instructions to DO1 correctly indicates who prepared and reviewed the
       payments.

       Recommendation E
       OHR should implement methods to mitigate the risk that fraudulent
       documentation is submitted by employees and not detected in a timely
       manner.

       Recommendation F
       OHR and with the Office of Financial Management (OFM) should (to ensure
       the reliability of management records regarding former employees), require
       that:
               All former employees are identified in the records;
               The records clearly indicate the amounts awarded, amounts repaid,
               amounts waived, and balance due for each former employee;
               Relevant programmatic information is promptly recorded (e.g.,
               separation date, status of collection efforts, etc.); and



STUDENT L O A N P R O G R A M                                        M A R C H 27, 2008
AUDIT 439
                                                                                              Page 11


                  An adequate audit trail (e.g.,provide a check number for amounts
                  repaid) is provided.

        Recommendation G
        OHR should review the reliability of the management records involving
        former employees. If OHR finds errors in their records, they should correct
        the records and collect the funds from the former employee, where
        appropriate. See Recommendation J.

        Recommendation H
        OHR should take the necessary steps to adequately safeguard the SLP files
        since they contain sensitive personal information.

        Recommendation I
        OHR should implement a separation of duties in the review, processing, and
        approval of SLP awards.

IDENTIFYING AND COLLECTING FORMER EMPLOYEE DEBTS
Employees who do not complete the service agreement+) must repay the SLP
award, unless they receive a waiver. We found two significant issues involving the
Commission's failure to identify and collect debts of former employees who have not
completed the service agreement(s).

Identifving Former Emplovee Debts
We conducted a review of all employees who received awards since FY 2003 and
determined whether they were still working a t the Commission. We identified 12
employees t h a t left the Commission without the knowledge of the SLP staff and had
not completed the service agreement(s).12 As a result, the employees are required to
reimburse the Commission for the SLP awards. We determined that the employees
owe the Commission $129,336. During the audit, we informed management of this
issue. OHR confirmed our results and DO1 is now initiating debt collections.

SLP officials were unaware that the employees no longer worked a t the
Commission, due to problems with the employee clearance process.13 We have
stated in prior OIG reports that this process needs improvement, and have
specifically recommended that the Commission ensure that departing employees
complete their service agreement(s).14 OHR recently received responsibility for the
employee clearance process because of a Commission reorganization. OHR
acknowledged the problems with the employee clearance process but, as of yet, has
not remedied them.

12 See Appendix   D, Section II for sampling and testing methodology.
13 The Employee Clearance process is a set of steps that departing employees are required to perform
   before leaving the Commission; including eliminating computer access, returning government passports,
   ensuring compliance with Service Agreements, etc.
14 For instance, see Audit Report No. 323 dated September 29, 2000, and Investigative Memorandum OIG-
   432 dated February 16, 2006.

STUDENT LOAN PROGRAM                                                                MARCH 27, 2008
AUDIT 439
                                                                             Page 12


       Recommendation J
       OHR; in consultation OFM and DOI, should ensure that the $129,336 that
       the Commission is owed is collected, properly documented (see
       Recommendation C) and recorded (see Recommendation F) in a timely
       manner.

       Recommendation K
      OHR should conduct a thorough review of the Employee Clearance process to
      initiate improvements. At a minimum, the review must consider t h e
      different processing issues for headquarters versus regional office staff, and
      the issues identified in all prior OIG reports and memoranda.

Collecting;Former Em~loveeDebts
OHR has acknowledged that it has difficulty in general collecting employee debts.
According to OHR, former employees owed approximately $262,000 as of November
2007 with respect to the SLP. While this only represents approximately two percent
of the total amount awarded since the inception of the SLP through FY 2006, given
the unreliability of management records involving former employees, as discussed
previously on page nine and Recommendation F, this amount could be higher or
lower.

Recently, OFM hired a contractor to review OFM's debt collection policies and
procedures including those involving employee debts. The contractor might make
recommendations to increase the likelihood that employee debts are collected.

OFM also stated that a n improved employee clearance process should increase the
likelihood that former employees pay the debts because OFM often only learns of
the debt after the employee has left the Commission. For instance, if known earlier
the Commission could withhold money from the employee's last paycheck.

       Recommendation L
       OHR and OFM should implement promptly any recommendations of the
       contractor retained by OFM to increase the likelihood t h a t employee debts
       relating to the SLP are collected. If implementing the contractor
       recommendation(s) is not feasible, OHR and OFM should prepare a report
       (e.g., describing the recommendation, reason, etc.) for the OIG explaining
       why the recommendations were not implemented.

IMPROVING THE JUSTIFICATION MEMORANDUM PROCESS
To be eligible to receive a n award employees must meet the following performance
based criteria established by OPM and the CBA:
       Perform a t an acceptable level or fully successful;
       Have highlunique qualifications or meet a special need within the
       Commission and retaining the employee is essential;
       Is likely to leave the federal government;


STUDENT LOAN PROGRAM                                                 MARCH 27, 2008
AUDIT 439
                                                                                                  Page 13


           Departure from the agency would affect the Commission's ability to carryout
           a n activity or perform a function that is essential to the mission; and
           The employee that belongs to Section 2 or 4 of the CBA must either
           contribute to the Commission's mission, customer service, leadership, or
           teamwork.

The justification should also describe:
           The special qualifications or education required for the job position;
           The cost of training already provided to the employee; and
           The practicality of using other retention allowances.

The employee's supervisor is required to make the determination a s to whether the
employee meets the criteria by preparing a justification memorandum. However,
we found that there are significant issues involving the memoranda that t h e
Commission needs to address.

Justification Memorandum - Lack Substantial Information
While there are specific criteria that employees must meet to qualify for a n award,
the criteria have been rendered to be less than meaningful because supervisors
routinely simply state that the employee meets the required language. While the
correct language is used, the justification memorandum routinely lacks
substantiation or a basis for the determination t h a t the employee met the criteria.
Moreover, OHR does not question the justification memorandum provided the
supervisor uses the correct and required language. OHR has stated that they do not
believe their role is to second-guess the supervisor's determination.

According to the statute, agencies "...may, in order to recruit or retain highly
qualified personnel, establish a program [to reimburse student loans for employees]
...". (5 U.S.C. 5379(b)(1)) One of the avowed bases for the Commission's
implementation of the SLP is for retention purposes and "likely to leave the federal
government" is one of the criteria that employees a r e required to meet to qualify for
the SLP.

As previously discussed, we have confirmed that employees with many years of
service received awards, and thus, it is likely that some employees that received
awards do not intend to leave the Commission.

We also have found that according to OHR's records, in FY 2006, supervisors only
denied one employee a n award based upon performance reasons.15 While we do not
have per se objective evidence that a significant number of Commission employees
who are not likely to leave the federal government are receiving SLP benefits and it
is possible t h a t employees who are not meeting the criteria, are choosing not to

15   In FY 2006, the Commission denied five employees an award, but in four of five cases, the employees
     were denied for administrative eligibility reasons. This one employee denied for performance reasons
     appealed and subsequently received their award.

STUDENT LOAN PROGRAM                                                                   M A R C H 27. 2008
AUDIT 439
                                                                              Page 14


apply for the SLP, in our view, a meaningful review of the listed criteria through the
improvement of the quality of the justification memoranda will substantially
improve the efficiency of the process.

        Recommendation M
        OHR; in consultation with the Union, should provide supervisors with
        guidance on preparing substantial justification memoranda, including
        requiring some appropriate substantiation of the listed criteria (see
        Recommendation 0).

        Recommendation N
        OHR should return justification memoranda to supervisors that lack
        substantiation of the criteria.

Justification Memorandum- Initially Lacking: Reauired Information
We found OHR returned 18 of 25 justification memorandums to the supervisor
because the memoranda did not contain the required language.16 The instructions
for Commission Form 2497 provide information about the requirements. We believe
that the efficiency of the SLP process could be improved if supervisors were
provided with a plain English (e.g., use of bullets) document outlining the
requirements.

        Recommendation 0
        OHR should prepare a plain English document regarding the required
        criteria for justification memoranda for the 2008 Open Season (see
        Recommendation M).

PLANNING FOR COMPLIANCE ISSUES
As discussed below, we found several areas where OHR h,as not implemented
critical compliance procedures.

Maximum Lifetime Award
OHR does not have an automated process to ensure that employees do not exceed
the maximum lifetime award. Accordingly, a t present, there is no mechanism in
place to ensure or even track that a n employee does not receive the maximum
lifetime individual award amount for the SLP. This has not created a real-life
concern a s of yet because the SLP has only existed since 2003 and the maximum
annual award amount is $10,000, no employee, by definition, could have reached the
$60,000 maximum. However, procedures should be developed to ensure that this
does not become a concern in the future.

        Recommendation P
        OHR should implement an automated process for monitoring lifetime awards
        before the 2009 "Open Season".

16 See Appendix   D, Section Ifor the methodology.

STUDENT LOAN PROGRAM                                                 MARCH 27. 2008
AUDIT 439
                                                                                Page 15


Collective Bargaining Agreement
The CBA contains various requirements regarding the number and status of the
employees chosen for a SLP award. However, some of the requirements, a s
discussed below, have not been performed because the Commission has generally
granted all applicants the maximum annual award. Thus, the Commission has not
been in a situation where it had to choose one applicant over another. OHR should
implement the required procedures if employees do not receive the maximum
annual awards when:
           The justification memorandum process is improved, thus appropriately
           weeding out applicants who do not meet the identified criteria; or
           The SLP funding is not sufficient.

The requirements are a s follows:
           At least 20 percent of the SLP funds must be awarded to non-professional
           employees;
           I n deciding who receives a n award, the Commission needs to maintain a
           balanced workforce in which women and members of racial and ethnic
           minority groups are appropriately represented;l7
           Amounts returned to the Commission, because a n employee did not complete
           their service agreement, etc., should be allocated to employees who did not
           receive the maximum annual award. The CBA does not contain a detailed
           distribution plan (e.g., should every current employee since 2003 who did not
           receive the maximum award amount be eligible for a payment) or establish a
           minimum amount (i.e., materiality) for redistribution; and
           The Commission needs to notify the Union if it intends to use the SLP to
           target a particular job series or DivisionIOffice.

           Recommendation Q
           OHR should develop a plan to obtain the necessary data (some of which is
           already collected), and a methodology to analyze (e.g., determine the amount
           of awards given to particular groups) and record the data to comply with the
           CBA requirements, a s necessary.

           Recommendation R
           OHR; in consultation with the Union, should develop a detailed distribution
           plan (e.g., identify time periods) and determine whether to establish a
           minimum amount for redistributions.

IMPROVING VACANCY ANNOUNCEMENTS
We found that 10 of 15 vacancy announcements did not mention the SLP.18 OHR
acknowledged that vacancy announcements lacked consistency in various areas,


17 The   statute, 5 U.S.C. 5379(e) also requires this objective.
18   See Appendix D, Section Ill for the methodology used.

S T U D E N T L O A N PROGRAM                                           MARCH 27, 2008
A U D I T 439
                                                                          Page 16


including relating to the SLP. OHR stated that they intend to improve the
consistency of vacancy announcements. I t is imperative that all vacancy
announcements include language on the SLP since the benefit is supposed to be
assist in recruitment efforts.

      Recommendation S
      OHR should ensure that all newly issued vacancy announcements include
      language regarding the SLP.


DISCUSSION OF MANAGEMENT COMMENTS 

Commission management concurred with all of our recommendations. Their formal
written response is included as Appendix C.




STUDENT L O A N PROGRAM                                           MARCH 27, 2008
AUDIT 439
                                                      Page 17



                                            APPENDIX A 


                         ABBREVIATIONS

        Collective Bargaining Agreement         CBA
        Department of Interior                  DO1
        Government Accountability Office        GAO
        Fiscal Year                             FY 

        Office of Financial Management          OFM
        Office of Human Resources               OHR
        Office of Personnel Management          OPM
        Securitas and Exchange Commission       Commission
        Student Lo.an Repayment Program         SLP




STUDENT LOAN PROGRAM                           MARCH 27, 2008
A U D I T 439
                                                                             Page 18



                                                             APPENDIX B

              LIST OF RECOMMENDATIONS 

Recommendation A
OHR should undertake the following actions regarding approvals throughout the
SLP process (See Recommendations B & I):
       Officially delegate in writing the authority for the Associate Executive
       Director of OHR to approve waivers if a n employee does not complete their
       Service Agreement, if the Associate Executive Director retains this authority;
       Amend Form 2497 to require that the employee's supervisor print their
       name; and
       Issue guidance and/or amend Form 2497 to delineate i n what circumstances
       the Associate Executive Director is required to approve the SLP award.

Recommendation B
The Office of the Executive Director should review OPM regulation (5 CFR
537.103(a)(l)) and ensure that the proper individual approves the SLP awards, as
required.

Recommendation C
OHR should ensure that SLP files contain all appropriate documentation regarding
repayments by employees who do not complete their Service Agreements.

Recommendation D
OHR should ensure that the documentation in the SLP files correctly indicates who
prepared and reviewed the payments.

Recommendation E
OHR should implement methods to mitigate the risk that fraudulent documentation
is submitted by employees and not detected in a timely manner.

Recommendation F
OHR and with the Office of Financial Management (OFM) should (to ensure the
reliability of management records regarding former employees), require that:
       All former employees are identified in the records;
       The records clearly indicate the amounts awarded, amounts repaid, amounts
       waived, and balance due for each former employee;
       Relevant programmatic information is promptly recorded (e-g.,separation
       date, status of collection efforts, etc.); and



STUDENT L O A N P R O G R A M                                       M A R C H 27, 2008
A U D I T 439
                                                                             Page 19


       An adequate audit trail (e.g., provide a check number for amounts repaid) is
       provided.

Recommendation G
OHR should review the reliability of the management records involving former
employees. If OHR finds errors in their records, they should correct the records and
collect the funds from the former employee, where appropriate (See
Recommendation J).

Recommendation H
OHR should take the necessary steps to adequately safeguard the SLP files since
they contain sensitive personal information.

Recommendation l
OHR should implement a separation of duties in the review, processing, and
approval of SLP awards.

Recommendation J
OHR; in consultation with OFM and DOI, should ensure that the $129,336 that the
Commission is owed is collected, properly documented (See Recommendation C) and
recorded (See Recommendation F) in a timely manner.

Recommendation K
OHR should conduct a thorough review of the Employee Clearance process to
initiate improvements. At a minimum, the review must consider the different
processing issues for headquarters versus regional office staff, and the issues
identified in all prior OIG reports and memoranda.

Recommendation L
OHR and OFM should implement promptly any recommendations of the contractor
retained by OFM to increase the likelihood that employee debts relating to the SLP
are collected. If implementing the contractor recommendation(s) is not feasible,
OHR and OFM should prepare a report (e.g., describing the recommendation,
reason, etc.) for the OIG explaining why the recommendations were not
implemented.

Recommendation M
OHR; in consultation with the Union, should provide supervisors with guidance on
preparing substantial justification memoranda, including requiring some
appropriate substantiation of the listed criteria (See Recommendation 0).

Recommendation N
OHR should return justification memoranda to supervisors that lack substantiation
of the criteria.




STUDENT L O A N PROGRAM                                              MARCH 27, 2008
AUDIT 439
                                                                          Page 2 0


Recommendation 0
OHR should prepare a plain English document regarding the required criteria for
justification memoranda for the 2008 Open Season (See Recommendation M).

Recommendation P
OHR should implement a n automated process for monitoring lifetime awards before
the 2009 "Open Season".

Recommendation Q
OHR should develop a plan to obtain the necessary data (some of which is already
collected), and a methodology to analyze (e.g., determine the amount of awards
given to particular groups) and record the data to comply with the CBA
requirements, a s necessary.

Recommendation R
OHR; in consultation with the Union, should develop a detailed distribution plan
(e.g., identify time periods) and determine whether to establish a minimum amount
for redistributions.

Recommendation S
OHR should ensure that all vacancy announcements issued heretofore include
language regarding the SLP.




STUDENT LOAN PROGRAM                                              MARCH 27, 2008
AUDIT 439
                                                                                                                 Page 21



                                                                                         APPENDIX C

               MANAGEMENT'S COMMENTS

                                                     UNITED STATES
                                S E C U R I T I E S A N D EXCHANGE COMMISSION
                                              WASHINGTON, D.C.         20549

       O ~ F I C EDF
    HUMAN RESOURCES



                                                               MAR 2 5 2008
             H. David Kotz 

             Inspector Gen-1

             U.S. Securities and Exchange Commission 

             100 F Street NE 

             Washington, DC 20549 


             Mr. Kotz,

             I have reviewed Inspector General Report # 439, "Office of Inspector Genaal Audit of Student
             LoanPrcgraxun The report makes recommendations related to program policy and
             administration, records management, and internalwntrols and separation of duties. Specifically,
             the report recommends improving the guidance and forms, program execution, and recadkeeping
             andreporting. Some of the recommendations will require collaborationwith the Ofice of
             FinancialManagement and the Office of the Fjcecutive Director. OHR may also need to notify
             the union of certain recommendations and may be required to negotiate proposed changes to the
             student loan program based on this audit report I concur with the audit findings and the
             recommendations contained in the report

             OHR staffand leaders will incorporateall recommendations related to the program administration
             and intend wntrols, including appropriate delegations, prior to the announcement of the FY
             2008 student loan program. The staffhas already started revising its operating procedures and the
             forms related to the program. We will establishmorestringent loan verificationprocedures
             b t l y with lenders. We will determinehow to revise the award review and approval process in
             accordance to the recommendations contained in the report and applicableregulations, including
             the Collective Bargaining Unit. Where necessary, we will notify NTEU of any changes to the
             program.
             OHR will also work wllaborativelywith OFM to establishprocedures to collect funds ftom
             employees who leave prior to completing their service agreements unda the SLRP. We are
             maeatly working with OFM and DO1 to collect the debts owed by the former employees
             identified in this report. OHR will implement agreed upon recommendations made by the OFM
             contractor to ensure that debts incurred fhmthe SLRP are collected timely.

             Thank you for the audit reportand the professionalmanner in wbich it was conducted.

                                                                     Sincerely,         A




                                                                     Associate Executive Director, OHR




STUDENT LOAN PROGRAM                                                                                    MARCH 27. 2008
AUDIT 439
                                                                                                 Page 2 2



                                                                            APPENDIX D


                        SAMPLING AND TESTING 

                          METHODOLOGIES 

1.         INTERNAL CONTROL TESTING
Our internal control testing, unless otherwise stated below, involved a judgmental
sample of 25 of 365 employees received a n award in FY 2006. We selected the
employees from OHR's Excel spreadsheets. We chose FY 2006 because it was the
most recently completed fiscal year when we performed our audit fieldwork. When
selecting the judgmental sample, we attempted to choose a sample that was
representative of the universe. For instance, we chose a specific number of
professionals, regional office staff, and other employees. While we believe the
sample is representative, our results should not be projected upon the universe.

We modified our methodology for the following situations:
           We reviewed the five employees who were denied awards in FY 2006 to
           understand the circumstances. We identified the employees from OHR's
           Excel spreadsheets;
           We reviewed the employee who received a repayment waiver. We identified
           the employee from OHR's Excel spreadsheets;lg
           We selected 15 employees from the payment documentation submitted to
           DO1 in FY 2006 to ensure t h a t the employees were actual applicants; and
           We selected 15 employees who received multiple awards from OHR's Excel
           Spreadsheets to review OHR's monitoring of service agreements.


II.        IDENTIFYING AND COLLECTING EMPLOYEE DEBT-
We identified all employees who received a t least one award since N 2003 by
reviewing OHR's Excel spreadsheets. We then determined whether the employee
was still a t the Commission by reviewing DOI. If they left the Commission (and did
not transfer to another federal agency or receive a waiver), we determined whether
the SLP staff were aware that they left by reviewing OHR's Excel spreadsheets.
For those employees who left without the staffs knowledge, we reviewed the Excel
spreadsheets to determine whether the employee completed their service




19   During our testing on former employees, we identified two other instances. However, OHR did not record
     these instances. See the finding on Strengthening Infernal Controls.

STUDENT LOAN PROGRAM                                                                   MARCH 27, 2008
AUDIT 439
                                                                         Page 2 3




Ill.   VACANCY ANNOUNCEMENTS
We selected all vacancy announcements posted on the Commission's website on the
date that we performed our audit fieldwork. We excluded a vacancy announcement
because it was for a term position that was ineligible for SLP. We believe the
vacancy announcements are representative and the results can be projected on the
universe such as vacancy announcements posted on other dates. The number of
vacancy announcements varied daily depending on employee turnover, funding, etc.




STUDENT L O A N PROGRAM                                          MARCH 27, 2008
AUDIT 439
